     Department of Homeland Security




               FEMA Public Assistance Grant Funds 

           Awarded to the Long Beach Port Commission, 

                     Long Beach, Mississippi





DA-12-22                                            July 2012

                                                   OFFICE OF INSPECTOR GENERAL
                                                        Department of Homeland Security
                                                        Washington, DC 20528 / www.oig.dhs.gov

                                                       July 18, 2012

                    MEMORANDUM FOR:




                    FROM:




                    SUBJECT:                            FEMA Public Assistance Grant Funds Awarded to the
                                                        Long Beach Port Commission, Long Beach, Mississippi
                                                      . FEMA Disaster Number 1604-DR-MS
                                                        Audit Report Number DA.:.12-22

                    We audited public assistance funds awarded to the Long Beach Port Commission (Port)
                    in Long Beach, Mississippi (FIPS Code 047-UDKVR-00). Our audit objective was to
                    determine whether the Port accounted for and expended Federal Emergency
                    Management Agency (FEMA) funds according to Federal regulations and FEMA
                    guidelines.

                    As of September 15, 2011, the Port had received a public assistance award of $4.3
                    million from the Mississippi Emergency Management Agency (State), a FEMA grantee,
                    for damages resulting from Hurricane Katrina, which occurred in August 2005. The
                    award provided 100 percent FEMA funding for debris removal, replacement of buildings,
                    and repairs to the harbor and parking areas damaged as a result of the disaster. The
                                                        1
                    award included five large projects.

                    We audited four large projects with awards totaling $4.1 million. The audit covered the
                    period of August 29, 2005, to September 15, 2011, during which the Port claimed $3.5
                    million for the four projects included in our audit scope (see Exhibit A, Schedule of
                    Projects Audited). At the time of our audit, the Port had not completed work on all
                    projects and, therefore, had not submitted a final claim to the State for project
                    expenditures.

                    We conducted this performance audit between September 2011 and March 2012
                    pursuant to the Inspector General Act of 1978, as amended, and according to generally
                    accepted government auditing standards. Those standards require that we plan and


                    1 Federal regulations in effect at the time of Hurricane Katrina setthe large project threshold at $55,500.




---~--~   -----   ----~----.-------
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objective. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objective. We conducted this audit by applying the statutes,
   regulations, and FEMA policies and guidelines in effect at the time of the disaster.

   We judgmentally selected project costs (generally based on dollar value); interviewed
   Port, State, and FEMA personnel; reviewed the Port’s procurement policies and
   procedures; reviewed applicable Federal regulations and FEMA guidelines; and
   performed other procedures considered necessary under the circumstances to
   accomplish our audit objective. We did not assess the adequacy of the Port’s internal
   controls applicable to its grant activities because it was not necessary to accomplish our
   audit objective. However, we gained an understanding of the Port’s method of
   accounting for disaster-related costs and its policies and procedures for administering
   activities provided for under the FEMA award.


                                      RESULTS OF AUDIT

   The Port accounted for expenditures on a project-by-project basis, as required by
   Federal regulations and FEMA guidelines. However, the Port did not follow Federal
   procurement procedures when awarding contracts valued at $1,734,397.

   Federal procurement regulations at 44 CFR 13.36 required the Port, among other things,
   to—
      •	 Take all necessary affirmative steps to ensure that minority firms, women’s
          business enterprises, and labor surplus area firms are used, when possible,
          during the procurement process. (44 CFR 13.36(e)(1).)

       •	 Conduct all procurement transactions in a manner providing full and open
          competition. (44 CFR 13.36(c)(1).) Noncompetitive procurement may be used
          under certain circumstances, one of which is when the public exigency or
          emergency will not permit a delay resulting from competitive solicitation. (44
          CFR 13.36(b).)

       •	 Perform a cost or price analysis in connection with every procurement action,
          including contract modifications, to determine the reasonableness of the
          proposed contract price. (44 CFR 13.36(f)(1).)

   In addition, FEMA’s Public Assistance Guide (FEMA 322, Public Assistance Guide, October
   1999, p. 39) specifies that—


www.oig.dhs.gov                                2	                                      DA-12-22
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       •	 Contracts must be of reasonable cost, generally must be competed, and must
          comply with Federal, State, and local procurement standards.

       •	 Noncompetitive proposals should be used only when the award of a contract is
          not feasible under small purchase procedures, sealed bids, or competitive
          proposals, and one of the following circumstances applies: (1) the item is
          available only from a single source, (2) there is an emergency requirement that
          will not permit a delay, (3) FEMA authorizes noncompetitive proposals, or (4)
          solicitation from a number of sources has been attempted and competition is
          determined to be inadequate.

   FEMA may grant exceptions to Federal procurement requirements to subgrantees on a
   case-by-case basis (44 CFR 13.6(c)).

   Minority Firms, Women’s Business Enterprises, and Labor Surplus Area Firms Not
   Adequately Considered

   The Port did not take affirmative steps to include minority firms, women’s business
   enterprises, and labor surplus area firms in its bid process for contract work totaling
   $1,734,397 (Projects 5079, 5852, and 6860). There was no documentation in the Port’s
   procurement records to show that it did so. Port officials said that they were not aware
   of this Federal procurement requirement. As a result, such business enterprises were
   not given opportunities available to them under Federal regulations. Therefore, we
   question the $1,734,397 awarded for the contract work. Because this amount includes
   $213,467 of contracts awarded for project management and professional architectural
   and engineering (A/E) services (discussed below) that were not properly competed, the
   net amount we are questioning is $1,520,930.

   Procurement Process and Price/Cost Analysis

   The Port did not properly procure contracts valued at $213,467 for professional A/E
   work and project management services. In addition, the Port did not perform a price or
   cost analysis to determine the reasonableness of the contractors’ proposed prices for
   such work.

       •	 Under Projects 5079, 5852, and 6860, the Port hired an A/E firm it had used prior
          to Hurricane Katrina to perform A/E services valued at $158,970 instead of
          competing the work.

       •	 Under Projects 5079 and 5852, the Port did not properly procure project
          management services valued at $54,497. The Port solicited bids from A/E firms


www.oig.dhs.gov                               3	                                     DA-12-22
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           and selected one firm using a qualifications-based selection process. However,
           this method of contracting, where price is not used as a selection factor, may be
           used only in procurement of A/E professional services (44 CFR 13.36(d)(3)(v)). It
           may not be used to purchase other types of services, such as project
           management services, from A/E firms.

   We question the $213,467 claimed for contract work that was not procured in
   accordance with Federal contracting requirements.

   Port Response. Port officials disagreed with the finding, saying that they advertised all
   of their contracts in local and surrounding newspapers. They also said that they
   believed the advertisements had been coordinated through the Mississippi
   Development Authority, a state agency, which has a process to ensure the use of
   minority firms, women’s business enterprises, and labor surplus area firms. They
   believed that the process they used to award the contracts satisfied the requirements of
   44 CFR 13.36(e)(1).

   Port officials also said they thought the process used to procure project management
   and professional A/E services for Projects 5079, 5852, and 6860 was correct. They
   believed they were not required to compete the A/E professional services contract since
   they had a relationship with the A/E firm prior to Hurricane Katrina. They said they
   were not aware of the requirement that an A/E firm must be performing A/E services in
   order to use a qualifications-based procurement process.

   OIG Response. We disagree that the Port properly competed all contracts. Also, the
   Mississippi Development Authority could not confirm that the Port coordinated with it
   during the procurements in question. Federal procurement standards require that
   procurement transactions be conducted in a manner providing full and open
   competition. The regulations also require that additional steps be taken, beyond
   competition, to ensure the use of minority firms, women’s business enterprises, and
   labor surplus area firms.


                                     RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Disallow $1,734,397 of ineligible costs claimed for
           contracts that were not procured in accordance with Federal requirements,
           unless FEMA decides to grant an exception for all or part of the costs as provided



www.oig.dhs.gov                                4                                      DA-12-22
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           for in 44 CFR 13.6(c) and Section 705(c) of the Robert T. Stafford Disaster Relief
           and Emergency Assistance Act, as amended.

           Recommendation #2: Instruct the State to reemphasize to the Port its
           requirement to comply with Federal procurement regulations and FEMA
           guidelines when acquiring goods and services under a FEMA award.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with Port, State, and FEMA officials during our
   audit. We also provided a draft report in advance to these officials and discussed it at
   the exit conference held on March 20, 2011. Port officials disagreed with our findings
   and recommendation #1. Their comments, where appropriate, are included in the body
   of the report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report were David Kimble, Eastern Region Audit Director;
   Larry Arnold, Audit Manager; and Emma Peyton, Auditor-in-charge.

   Please call me with any questions, or your staff may contact David Kimble, Eastern
   Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                 5                                       DA-12-22
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                              EXHIBIT A

                             Schedule of Projects Audited

                         August 29, 2005, to September 15, 2011

                             Long Beach Port Commission 

                          FEMA Disaster Number 1604-DR-MS



   Project                                       Amount       Amount          Amount
   Number                 Scope                  Awarded      Claimed        Questioned
    5079   City of Long Beach (MS) Harbor       $2,359,606   $2,320,778        $983,203
    5852   Long Beach (MS) Harbor Master’s
           Structure                               954,005         777,501      720,437
    6860   City of Long Beach (MS) Harbor
           Parking/Roadway                         431,426         431,426       30,757
    6588   Mississippi Gulf Coast Chamber of
           Commerce Building                       386,582            0               0
    Total                                       $4,131,619   $3,529,705      $1,734,397




www.oig.dhs.gov                            6                                     DA-12-22
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                                                                     Exhibit B



                                     Report Distribution List

                                   Long Beach Port Commission 

                                FEMA Disaster Number 1604-DR-MS



   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Chief Procurement Officer
   Director, Risk Management and Compliance
   Audit Liaison, FEMA Region IV
   Audit Liaison, FEMA (Job Code G-11-069)

   Grantee

   Director, Mississippi Emergency Management Agency

   State

   State Auditor, Mississippi

   Subgrantee

   Comptroller, Long Beach Port Commission




www.oig.dhs.gov                                7                       DA-12-22
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or fax it
directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
